HHS/OIG-Audit--"Review of the Island Peer Review Organization's Denials of Full Medical Assistance Claims That New York State Identified As Successfully Recovered Through the Automated Void Process, (A-02-93-01023)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Island Peer Review Organization's Denials of Full Medical Assistance Claims That New York State Identified
As Successfully Recovered Through the Automated Void Process," (A-02-93-01023)
April 13, 1994
Complete
Text of Report is available in PDF format (1.44 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our audit to determine if full claim denials of inpatient hospital stays
made by the Island Peer Review Organization (IPRO) were successfully processed and whether the Federal Government received
its share of recoupments. Our audit disclosed that systems were generally adequate for processing voided transactions which
resulted in recoupments from providers. However, we noted a significant system weakness in that certain hospitals improperly
rebilled and were paid previously voided claims. We recommended that New York State work with IPRO and the affected providers
to determine the appropriate overpayment amounts and recover these claims (Federal share estimated at $1.4 million), and
develop appropriate procedures and controls within their system to ensure that previously denied and voided claims are
not again reimbursed by Medicaid if they are resubmitted by providers.